                                         UNITED STATES DEPARTMENT OF EDUCATION 

                                              OFFICE OF INSPECTOR GENERAL 

                                                                    REGION V 

                                                            III NORTH CANAL, SUITE 940 

                                                              CHICAGO, ILLINOIS 60606 


                                                                  FAX: (312) 353-0244
     Audit                                                                                                                                    Investigation
(312) 886-6503                                                                                                                               (312) 353-7891

                                                                                                    NOV 0 6 2003
                                                                                     Control Number ED-OIG/A05-D0008


                 Mr. Torn Horne, Superintendent of Public Instruction
                 Arizona Department of Education 

                 1535 West Jefferson Street 

                 Phoenix, AZ 85007

                 Dear Mr. Horne:

                 This Final Audit Report presents the results of our audit of 20 Arizona charter schools'
                 uses of U.S. Department of Education (ED) funds! for the period October 1,2000,
                 through September 30, 2001. The objective of our audit was to determine if Arizona
                 charter schools expended ED funds according to applicable law and regulations.

                 Charter schools in Arizona generally expended Title I, Part A (Title I) of the Elementary
                 and Secondary Education Act of 1965 (ESEA),2 and Part B of the Individuals with
                 Disabilities Education Act (IDEA) funds in accordance with applicable law and
                 regulations. However, contrary to the law and regulations, we found that the Arizona
                 Department of Education (ADE) provided Title I and IDEA funds directly to private, for­
                 profit entities. We recommend that the Assistant Secretary for Elementary and
                 Secondary Education and the Assistant Secretary for Special Education and
                 Rehabilitative Services instruct ADE to

                 • 	 refund $1,129,006 to ED for Title I and IDEA funds provided to private, for-profit
                     charter holders authorized by the Arizona State Board for Charter Schools during the
                     period October 1,2000, through September 30, 2001;
                 • 	 determine the total amount of Title I and IDEA funds that it provided to private, for­
                     profit charter holders authorized by the Arizona State Board of Education and the
                     individual school districts during the period October 1, 2000, through September 30,
                     2001, and refund that amount to ED;
                 • 	 determine the total amount of Title I and IDEA funds that it provided to private, for­
                     profit charter holders during the period October 1, 2001, through June 30, 2003, and
                     refund that amount to ED;
                 • 	 stop providing Title I and IDEA funds directly to private, for-profit entities; and

                 1 Our audit included Public Charter Schools Program, Title I, and IDEA funds. This report only covers
                 Title I and IDEA funds. In Arizona, Public Charter Schools Program funds flow directly from ED to
                 individual charter schools.
                 2 As amended by the Improving America's Schools Act of 1994 and, subsequently, by the No Child Left
                 Behind Act of 200 1.


                       Our mission Is to promote the efficiency, effectiveness, and Integrity of the Department's programs and operations.
Final Audit Report	                                                        ED-OIG/A05-D0008


• 	 implement procedures to give control of federal funds only to an institution that
    qualifies as a public entity and ensure students attending private, for-profit charter
    schools are provided the services to which they are entitled. (Finding No. 1)

Additionally, two of the charter schools that we audited did not expend Title I funds
entirely in accordance with applicable law and regulations.

• 	 One charter school used Title I funds to supplant funds intended to provide regular
    classroom instructional services. Because the school used Title I funds to supplant
    rather than supplement other funds, Title I eligible students may not have received the
    extra services they needed to gain the skills necessary to meet the State’s performance
    standards. We recommend that the Assistant Secretary for Elementary and Secondary
    Education instruct ADE to refund $89,833 to ED and instruct ADE to require the
    school to implement controls that provide reasonable assurance that Title I funds are
    used to supplement, not supplant, funds intended to provide regular classroom
    instruction. (Finding No. 2)

 • 	 Another charter school failed to provide adequate accounting records showing that it
     spent all of its Title I funds, inaccurately reported to ADE the amount of Title I
     funds it spent, and drew Title I funds in excess of its immediate needs. The charter
     school maintained an inadequate financial management system and inaccurately
     reported on its use of Title I funds because school officials failed to familiarize
     themselves with the regulations. We recommend that the Assistant Secretary for
     Elementary and Secondary Education instruct ADE to refund $46,104 to ED or
     provide support on how the charter school expended Title I funds during our audit
     period. We also recommend that ADE require the school to develop and implement
     controls that will provide reasonable assurance that the school accurately accounts
     for and reports on its use of Title I funds, minimizes Title I cash on hand, and limits
     requests for Title I funds to its immediate needs. (Finding No. 3)

In response to a draft of this audit report, ADE provided written comments agreeing with
Finding No. 2 and Finding No. 3. ADE disagreed with Finding No. 1 and provided a
detailed written response explaining why it disagreed. ADE commented that, consistent
with Arizona law, ADE treats charter schools as public schools whether the charter
schools are operated by a non-profit, public, or for-profit entity. ADE does not believe
that federal law precludes for-profit charter schools from receiving federal funds. We
evaluated ADE’s written comments for Finding No. 1 and have not changed our position.
Private, for-profit entities that hold charters for public schools are not public entities
under the administrative supervision or control of a government other than the federal
government. Subsequently, such entities are not allowed to exert control over Title I and
IDEA funds. ADE’s comments are summarized in the body of the report and included in
their entirety as an attachment to this report.




                                              2

Final Audit Report                                                                     ED-OIG/A05-D0008


                                            AUDIT RESULTS

Finding No. 1 ADE Provided Federal Funds to Private Entities

ADE provided Title I and IDEA funds to private entities that operated charter schools in
Arizona. Though ADE considers each charter holder a local educational agency (LEA),
the private company holding the charter is not a public entity. Only public entities can
receive Title I and IDEA funds.

The term "public" is defined in 34 C.F.R. § 77.1(c) as an agency, organization, or
institution under the administrative supervision or control of a government other than the
Federal Government. According to ESEA, as amended by the Improving America’s
Schools Act of 1994, Title X, Part C, Section 10306(1)(B), the term charter school means
“a public school that is created by a developer as a public school, or is adapted by a
developer from an existing public school, and is operated under public supervision and
direction.” According to ESEA, as amended by the Improving America’s Schools Act of
1994, Title XIV, Part A, Section 14101, Paragraph 18, and the IDEA Amendments of
1997, Part A, Section 602(15)(A), a LEA is a public board of education or other public
authority legally constituted within a state for either administrative control or direction
of, or to perform a service function for, public elementary or secondary schools in a city,
county, township, school district, or other political subdivision of a state. Therefore, Title
I and IDEA funds are required to stay in the control of a public entity.

For the purpose of providing Title I and IDEA funds to charter schools, Arizona law3
does not differentiate between charter holders. Charter holders in Arizona can be private
or public entities. Private entities that hold a charter from an authorizing entity can open,
control, and operate public charter schools funded with Title I and IDEA funds just like
public entities. When one of these entities holds a charter and subsequently opens
additional charter schools under the original charter, ADE considers that entity, whether
private or public, a LEA. ADE gives control over Title I and IDEA funds to each LEA
and expects each LEA to expend those funds according to appropriate laws and
regulations.

During our audit period, the Arizona State Board for Charter Schools, Arizona’s largest
chartering entity, recognized over 29 private, for-profit entities that operated at least 75
charter schools. ADE awarded $752,490 in Title I funds to these private, for-profit
entities. In addition, ADE awarded $376,516 in IDEA funds to 13 of these private, for-
profit entities. Giving control of federal funds to a non-public entity is contrary to the
law and could detrimentally affect the quantity and quality of Title I and IDEA services
provided to disadvantaged students attending a private, for-profit charter school.




3
    Authorized by Arizona Revised Statutes, Chapter 1, Title 15, Article 8, Section 15-183(B).


                                                       3
Final Audit Report	                                                        ED-OIG/A05-D0008


Recommendations

We recommend that the Assistant Secretary for Elementary and Secondary Education and
the Assistant Secretary for Special Education and Rehabilitative Services instruct ADE to

1.1 	   refund $1,129,006 to ED for Title I and IDEA funds provided to private, for-profit
        charter holders authorized by the Arizona State Board for Charter Schools during
        the period October 1, 2000, through September 2001;

1.2 	   determine the total amount of Title I and IDEA funds that it provided to private,
        for-profit charter holders authorized by the Arizona State Board of Education and
        the individual school districts during the period October 1, 2000, through
        September 30, 2001, and refund that amount to ED;

1.3 	   determine the total amount of Title I and IDEA funds that it provided to private,
        for-profit charter holders during the period October 1, 2001, through June 30,
        2003, and refund that amount to ED;

1.4 	   stop providing Title I and IDEA funds directly to private, for-profit charter
        holders; and

1.5 	   implement procedures to give control of federal funds only to an institution that
        qualifies as a public entity and ensure students attending private, for-profit charter
        schools are provided the services to which they are entitled.

Auditee Comments

ADE did not concur with our finding that private, for-profit entities are not “public”
entities for the purposes of receiving Title I and IDEA funds. ADE commented that it
believes that its practice of distributing Title I and IDEA funds to Arizona’s for-profit
charter schools complies with federal law. ADE stated that Arizona’s charter school law
does not differentiate between charter schools operated by non-profit or for-profit
entities. Under Arizona Revised Statutes, all charter schools are subject to the same
financial and electronic data submission requirements. These requirements include an
annual programmatic and financial external audit and financial reports to the
Superintendent regarding funding by program. The financial and electronic data
information that charter schools are required to submit is to demonstrate their compliance
with state fiscal requirements and program regulations. In addition to monitoring each
charter school’s use of state funds, ADE’s program staff monitor how charter schools
expend federal funds. If ADE’s program staff are made aware of non-compliance issues,
they work with LEA staff to develop corrective action plans and continue to monitor the
LEA to ensure that the plan is in compliance with both fiscal and program regulations.

ADE also commented that the Arizona State Board of Education has the authority to
exercise general supervision over and regulate the conduct of charter schools as public
schools, regardless of whether each school is operated by a non-profit or for-profit
organization. Arizona’s charter schools are monitored by one of its three types of


                                              4

Final Audit Report                                                         ED-OIG/A05-D0008


sponsoring entities, which are all public entities and given their authority by Arizona state
statute. The sponsoring entity of an Arizona charter school, which is authorized by state
law and each school’s chartering contract, has oversight and administrative responsibility
for each of the schools that it sponsors. These sponsoring entities monitor each school to
ensure it complies with federal and state law and the terms of its charter. If a charter
school does not comply with applicable federal and state laws, the sponsoring entity can
request that the Arizona State Board of Education withhold up to ten percent of the
monthly apportionments of state aid due to the school. The sponsoring entity also has the
authority to revoke the school’s charter if the school “breaches one or more provisions of
its charter.”

Additionally, ADE commented that the Title I and IDEA programs permit them to
distribute funds to public charter schools operated by for-profit entities. For-profit
charter schools have the same legal obligations to improve student achievement under
Title I and to educate children with disabilities under IDEA. For-profit and non-profit
charter schools meet the definition of public schools by Arizona law and operate under
“public supervision and direction” as defined in the Title I and IDEA law.

Finally, ADE stated that there is no federal statute or regulation that prohibits for-profit
charter schools from receiving Title I or IDEA funds.

OIG Response

ADE did not provide convincing evidence that private, for-profit entities holding charters
in Arizona are allowed to receive Title I and IDEA funds. Based on ADE’s comments,
we did not change the finding or recommendations in this report.

ADE provided information supporting that it does not differentiate between for-profit and
non-profit schools and that both types of schools are held to the same state standards.
However, ADE did not provide evidence showing that the for-profit entities that run the
charter schools and are allowed to function as LEAs qualify as “public” entities.
Additionally, ADE did not provide evidence showing that any of its three types of
sponsoring entities (Arizona State Board for Charter Schools, Arizona State Board of
Education, or a school district governing board) provide “administrative control or
direction” of the private, for-profit entities that hold the charter for the schools. The
controls that ADE points to are directed at the individual charter school holders that
operate one school. ADE’s charter school law does not provide direction on the fiscal
administration requirements pertaining to for-profit entities operating multiple charter
schools.

ADE commented that, under Arizona Revised Statutes, all charter schools are subject to
the same financial and electronic data submission requirements, including annual
programmatic and financial external audits, and are required to submit financial reports to
the Superintendent regarding funding by program. However, the results of our audit
demonstrate that private, for-profit and non-profit charter schools are not subject to the
same financial requirements. Non-profit charter schools expending over $300,000 in



                                              5

Final Audit Report                                                        ED-OIG/A05-D0008


federal funds are required to submit to an Office of Management and Budget (OMB)
Circular A-133 compliance audit designed to specifically look at the entity’s use of
federal funds under generally accepted government auditing standards. These audit
standards were implemented to obtain consistency and uniformity of audits for state and
local governments and non-profit entities. Private, for-profit charter schools expending
over $300,000 in federal funds are not subject to OMB Circular A-133 audit
requirements, even though private, for-profit entities operating multiple charter schools
have a greater chance of receiving over $300,000 in federal funds than those operating a
single, non-profit charter school. Because ADE allows for-profit entities to operate
charter school(s) that receive Title I and IDEA funds, it has allowed for-profit entities
that operate multiple (or large) charter schools to circumvent the mandatory federal
reporting requirement imposed on its non-profit counterparts. Pursuant to 20 U.S.C.
7221i, Section 5210 (1)(I), a charter school is a public school that agrees to comply with
the same federal and state audit requirements as do other elementary and secondary
schools in the state, unless such requirements are specifically waived for the purpose of
this program.

ADE commented that it treats charter schools as LEAs and oversees all charter schools in
the same manner, regardless of whether the school is operated by a non-profit, public, or
for-profit entity. However, our audit disclosed that ADE did not maintain sufficient
oversight of at least one private, for-profit entity that functioned as a LEA and operated
multiple charter schools. One of the 20 entities that we audited was a for-profit entity
that held the charter for 12 separate charter schools. During our audit period, 8 of the for-
profit entity’s 12 charter schools had poverty percentages of 35 percent or more.
Contrary to the Improving America’s Schools Act of 1994, Title I, Part A, Section 1113,
the private, for-profit entity expended Title I funds at only 3 of its 8 charter schools, and
it did not expend any Title I funds on the charter school that generated the most Title I
funds.

The private, for-profit entity functioning as the LEA should have identified eligible
school attendance areas (in this case, each of its charter schools), ranked each area, and
then determined the allocation for each area. In determining allocations, the LEA must
allocate funds received under Section 1113 to eligible school attendance areas or eligible
schools in rank order on the basis of the total number of children from low-income
families in each area or school. The for-profit entity determined the percentage of
poverty for each school but did not expend Title I funding at the school that generated the
most Title I funds. If ADE treated the private entity functioning as a LEA the same as it
treated all its other LEAs, it might have identified the LEA’s non-compliance with
federal Title I requirements.

Finding No. 2 One Charter School Used Title I Funds to Supplant Other Funds
Intended to Provide Classroom Instructional Services

Contrary to the law, one charter school used Title I funds to supplant, instead of
supplement, funds intended to provide regular classroom instructional services. The
school used $89,833 of Title I funds to pay for salaries and fringe benefits for regular



                                              6

Final Audit Report	                                                       ED-OIG/A05-D0008


classroom teachers. The school would have employed these teachers even if the school
did not receive Title I funds. Because the school did not have a school-wide Title I
program, teachers paid with Title I funds should have provided supplemental instruction
only to Title I eligible students.

ESEA, as amended by the Improving America's Schools Act of 1994, Section 1120A
(b)(1)(A), states that "… a State or LEA shall use funds received under this part only to
supplement the amount of funds that would, in the absence of such federal funds, be
made available from non-federal sources for the education of pupils participating in
programs assisted under this part, and not to supplant such funds."

When we asked what type of Title I program the school operated, the director of the
school thought the school operated a school-wide program. However, the school only
provided us with documents that showed it was allowed to operate a targeted assistance
Title I program. When we brought this matter to their attention, ADE Title I program
officials informed us that ADE has a monitoring/oversight system in place for ESEA
programs. ADE’s Title I program office relies extensively on the work of independent
auditors performing Office of Management and Budget Circular A-133 and limited scope
audits. In addition, the monitoring/oversight system includes a self-assessment document
that is completed on a rotating basis at least once every four to five years by every LEA
within the State, including charter schools. After receipt of the self-assessment
document, ADE conducts follow-up, on-site visits of each LEA. Had ADE scheduled
and conducted a site visit, its review might have disclosed that the school was
inappropriately operating as a school-wide Title I program and using Title I funds to pay
regular classroom teachers’ salaries.

Recommendations

We recommend that the Assistant Secretary for Elementary and Secondary Education
instruct ADE to

2.1 	   refund $89,833 to ED; and

2.2 	   instruct the school to implement controls to provide reasonable assurance that
        Title I funds are used to supplement, not supplant, funds intended to provide
        regular classroom instruction.

Auditee Response

ADE concurred with our finding and commented that a LEA’s compliance with federal
fiscal requirements is monitored by external auditors and ADE’s program personnel who
conduct regular monitoring of charter schools. When an issue of supplanting is found,
the LEA is required to reimburse the federal project with state funds. ADE will take the
appropriate action based on the findings in this report and, if appropriate, recoup the Title
I funds from the respective charter school.




                                              7
Final Audit Report                                                                ED-OIG/A05-D0008


Finding No. 3 One Charter School Had an Inadequate Financial Management
              System, Inaccurately Reported on Its Use of Title I Funds, and
              Maintained Title I Funds in Excess of Its Immediate Needs

One charter school’s financial management system was inadequate. The school’s system
did not provide for tracking expenditures by federal funding source. In addition, the
school inaccurately reported the amount of Title I funds spent for the 2000-2001 school
year (July 1, 2000, through June 30, 2002) to ADE. For the 2000 – 2001 school year, the
school requested and received its entire Title I allocation of $49,175 at the beginning of
the year. School officials informed us the school spent $3,071 during the year, but
reported to ADE that it spent $45,000 and carried over the remaining $4,175 to the
subsequent school year.4 When we asked for its accounting records, the school was
unable to provide records showing how it spent the $49,175. On March 19, 2003, school
officials provided accounting records showing the school only spent $3,071 in Title I
funds during the 2000-2001 school year, meaning it maintained excessive cash on hand
of $46,104 for most of the school year.

According to 34 C.F.R. § 80.20(a) and (b), fiscal control and accounting procedures of a
state as well as its subgrantees must be sufficient to permit the tracing of funds to a level
of expenditures adequate to establish that such funds have not been used in violation of
the restrictions and prohibitions of applicable statutes. Grantees and subgrantees must
maintain records that adequately identify the source and application of funds provided for
financially assisted activities. These records must contain information pertaining to grant
or subgrant awards and authorizations, obligations, unobligated balances, assets,
liabilities, outlays or expenditures, and income. According to 34 C.F.R. § 80.21(b), when
advances are made by letter-of-credit or electronic transfer of funds methods, the grantee
or subgrantee must make drawdowns as close as possible to the time of making
disbursements. The Treasury Regulations at 31 C.F.R. § 205.7(c)(4) provide that
recipients shall request funds not more than three business days prior to the day on which
it makes a disbursement.

The school maintained an inadequate financial management system and inaccurately
reported on its use of Title I funds because school officials failed to familiarize
themselves with the regulations. In addition, ADE officials informed us that the top 100
LEAs in Arizona received approximately 90 percent of all the State’s Title I funds.
Therefore, these LEAs received the most oversight. Small LEAs5 received less oversight.
According to ADE officials, during the 2000-2001 school year, all Arizona schools were
required to submit a minimum of two cash management reports during the year. These
reports were to show the amount of funds received and spent and the remaining cash
balance. Beginning with the 2001-2002 school year, schools were required to submit
monthly cash management reports. The monthly reports provide ADE’s Title I program

4
  After we identified this issue, a charter school official notified ADE officials about the inaccurate
reporting. On February 18, 2003, ADE approved the school’s amended 2002 Title I budget. The amended
budget included the $46,104 in carryover from our audit period.
5
  ADE generally considers each charter school a LEA. ADE considers a LEA small if it received less than
$50,000 in Title I funds for the school year.


                                                   8
Final Audit Report	                                                         ED-OIG/A05-D0008


officials with information that will allow them to evaluate how the funds were used. The
monthly reports should provide reasonable assurance that charter schools accurately
report on their uses of Title I funds.

School officials also failed to familiarize themselves with cash management requirements
and establish a system to ensure it drew down Title I funds only for immediate needs. In
addition, ADE allowed the school to draw its entire allocation at the beginning of the
year. An ADE official said a school typically receives its Title I allocation in a series of
monthly payments that reflects the timing of anticipated expenditures because Title I
expenditures usually are mostly salaries. The official said the school should not have
received its entire Title I allocation at the start of the year unless it could provide support
showing the expenditures would be incurred at the start of the year. We reviewed the
school’s 2000-2001 Title I budget and found it was comprised of $45,000 in salary and
benefit costs and $4,175 in supply costs.

Because its financial management system was inadequate, the school could not show how
it spent $46,104 in Title I funds. Because the school submitted a completion report to
ADE that inaccurately reported the total amount of Title I funds spent for the 2000-2001
school year, ADE did not have an opportunity to prevent the school from drawing down
additional Title I funds until it showed it had spent its cash on hand. The excess cash on
hand could have resulted in the United States Government incurring additional interest
costs.

Recommendations

We recommend that the Assistant Secretary for Elementary and Secondary Education
instruct ADE to

3.1 	   instruct the school to provide support to show how it spent $46,104 in Title I
        funds received for the 2000-2001 school year. If the school cannot show how it
        spent the funds, require ADE to refund $46,104 to ED;

3.2 	   instruct the school to develop and implement controls that provide reasonable
        assurance that it properly accounts for and accurately reports on its use of Title I
        funds; and

3.3 	   instruct the school to develop and implement controls to minimize Title I cash on
        hand and limit requests for Title I funds to its immediate needs.

Auditee Response

ADE concurred with the finding and commented that it believed that it was possible for a
LEA receiving less than $50,000 to receive its entire allocation at the beginning of the
school year. ADE reported that it has implemented new controls to ensure that a LEA
cannot maintain an excess cash balance of Title I funds. ADE requires all charter schools
to submit quarterly cash management reports and an annual project report via an
electronic grants management system. This system will automatically place a hold on


                                               9

Final Audit Report	                                                                    ED-OIG/A05-D0008


payments to the LEA if it has “excess cash” on hand. ADE also offers assistance to
charter schools to ensure that they are accurately reporting the use of Title I funds. If a
charter school is submitting fraudulent reports, ADE will take the appropriate measures
to report the charter school to the Office of the Attorney General and the sponsoring
agency.

                                           BACKGROUND

Charter schools are public schools that cannot charge tuition and are required to serve all
students, including those with special needs. Charter schools may apply for and receive
Title I funds to provide academic support and learning opportunities to help low-
achieving children in high-poverty schools master challenging curriculum and meet state
standards in core academic subjects. Charter schools also may apply for and receive
special education funding through the Grants to States program that provides states with
formula grants to meet special education and related services to children with disabilities
aged 3 through 21.

ADE has designated three types of authorizing entities6 that may issue charters7 to
individual schools. As of October 2001, the authorizing bodies in Arizona had chartered
419 schools. These charter schools served 69,884 students. During our audit period,
Arizona charter schools received $4,786,423 in Title I funds and $1,482,284 in IDEA
funds.

                       OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine if, for the period October 1, 2000, through
September 30, 2001, a sample of Arizona charter schools expended ED funds according
to applicable law [ESEA, as amended, Title X, Part C (20 U.S.C. 8061 – 8067), and Title
I, (20 U.S.C., Sections 6301 – 6514); and IDEA, Section 611-619 (20 U.S.C. 1411 –
1419)] and related regulations [34 C.F.R. Parts 80, 200, and 300]. Though our audit
covered PCSP, Title I, and IDEA funds, this report only conveys the results of charter
schools’ uses of Title I and IDEA funds.

To accomplish our objective, we

•	   interviewed ADE and Arizona State Board for Charter Schools personnel;
•	   interviewed Arizona Auditor General officials;
•	   reviewed ADE’s policies and procedures for administering grants;
•	   reviewed Arizona State law pertaining to charter schools;
•	   randomly and judgmentally selected 20 charter schools from a population of 221
     charter schools that received either Public Charter Schools Program, Title I, or IDEA
     funds for our audit period. We separated the charter schools into two different
     categories, urban and rural, by chartering entity. (Chartering entity officials provided

6
  These three types of entities are the Arizona State Board of Education, the Arizona State Board for 

Charter Schools, and individual school districts. 

7
  In Arizona, charters can be issued to public and private entities. 



                                                     10
Final Audit Report                                                       ED-OIG/A05-D0008


    the designation of whether the school was in an urban or rural area.) We randomly
    chose 13 schools based on the chartering entity that issued their charters – 4 schools
    chartered by the Arizona State Board for Charter Schools, 4 schools chartered by the
    Arizona State Board of Education, and 5 schools chartered by individual school
    districts. We judgmentally selected seven additional schools based on the total
    amount of federal funds expended and based on discussions with ADE and charter
    entity officials. Seven of the 20 charter schools that we selected received and
    expended Title I funds, and 2 received and expended IDEA funds; and
•   Audited all 20 schools’ uses of federal funds.

During our audit of each school, we visited the school, spoke with charter school
representatives, and reviewed the school’s accounting records pertinent to its use of ED
funds. When sufficient accounting records and related documentation were available, we
judgmentally selected expenditures and compared original source documents (such as
purchase orders, requisitions, invoices, receipts, and canceled checks) with the school’s
accounting records. We judgmentally selected the expenditures based on several factors.
These factors included purchase type (services or salaries), the total expenditure amount,
unclear or vague purchase descriptions, or descriptions that indicated the expenditure was
unallowable.

We also relied, in part, on ADE’s computer-processed school data. We compared ADE’s
Title I and IDEA award and expenditure data with the accounting records provided to us
by various charter schools. Based on these comparisons, we concluded ADE’s data were
sufficiently reliable to be used in meeting the audit’s objective. Additionally, we
reviewed individual charter schools’ accounting records. We compared those records
with a sample of supporting documentation such as invoices and canceled checks. Based
on our tests at the individual charter schools, we concluded that, in general, the data the
schools provided were sufficiently reliable to be used in meeting the audit’s objective.

We performed our work between December 2002 and June 2003. We visited 19 of the
20 schools in our sample from December 2 through 12, 2002 (we did not visit one of the
schools because it was not necessary to achieve our audit’s objective). We discussed the
results of our audit with ADE officials on March 31, 2003.

Our audit was performed in accordance with generally accepted government auditing
standards appropriate to the scope of audit described above.

                     STATEMENT ON MANAGEMENT CONTROLS

As part of our audit, we did not assess the adequacy of ADE’s management controls over
its administration of Title I and IDEA programs and funds because this step was not
necessary to achieve our audit objective. Instead, we relied on testing of charter schools’
compliance with applicable Title I and IDEA law and regulations. Our testing disclosed
a material weakness in ADE's management controls. Specifically, ADE relinquished
control of Title I and IDEA funds to private, for-profit entities because Arizona State law




                                            11 

Final Audit Report                                                        ED-OIG/A05-D0008



does not differentiate between public, non-profit and private, for-profit entities. This
weakness is discussed in the AUDIT RESULTS section of this report.

                            ADMINISTRATIVE MATTERS

Statements that managerial practices need improvements, as well as other conclusions
and recommendations in this report, represent the opinions of the Office of Inspector
General. Determinations of corrective action to be taken will be made by the appropriate
ED officials.

If you have additional comments or information that you believe may have a bearing on
the resolution of this audit, you should send them directly to the following ED officials,
who will consider them before taking final Departmental action on this audit.

                       Ronald Tomalis, Acting Assistant Secretary
                       Office of Elementary and Secondary Education
                       U.S. Department of Education
                       400 Maryland Avenue, SW, Room 3W315
                       Washington, DC 20202

                       Robert H. Pasternack, Ph.D., Assistant Secretary
                       Office of Special Education and Rehabilitative Services
                       U.S. Department of Education
                       330 C Street, SW, Room 3006
                       Washington, DC 20202

It is ED's policy to expedite the resolution of audits by initiating timely action on the
findings and recommendations contained therein. Therefore, receipt of your comments
within 30 days would be greatly appreciated.

In accordance with the Freedom ofInformation Act (5 U.S.C. §552), reports issued by
the Office of Inspector General are available to members of the press and general public
to the extent information contained therein is not subject to exemptions in the Act.


                                               Sincerely,




                                               Regional Inspector General
                                               for Audit


 Attachment



                                              12
Attachment




                                                           State of Arizona
                                                   Departmenr of Education


      Tom Horne
      Superintendent of
      Public Insuuccion                                    September 3, 2003

             Richard J. Dowd
             Regional Inspector General
             U.S. Department of Education
             Office of Inspector General
             111 N. Canal Street, suite 940
             Chicago, Illinois 60606-7204

             Re: Control Number ED-O IG/A05-DOOO8

             Dear Mr. Dowd:

             Thank you for the opportunity to comment on the draft audit report dated August 6, 2003,
             concerning the expenditure of federal funds by Arizona charter schools

             The Arizona Department of Education (ADE) agrees that corrective action Illay be appropriate if
             the charter schools identified in Findings 2 and 3 were not appropriately spending and/or
             accounting for federal funds. The ADE respectfully disagrees with Finding I concerning for­
             profit charter schools. These comments are intended to provide you with information explaining
             why ADE's distribution of federal funds to for-profit charter schools complies with both Arizona
             and federal law.

              Arizona for-profit charter schools are public schools thai are eligible for federal funds

              The draft audit report from the U.S . Department of Education ' s Office of Inspector General
              states that private for-profit charter schools are not " public" entities entitled 10 receive federal
              funds under Title I of the No Child Left Behind Act ("NCLB" ) (formerly the Elementary and
              Secondary Education Act of 1965), 20 U.S.c. §6301, et seq ("Title I" ) and the Individuals with
              Disabilities Education Act , 20 U.S C. §1400, et . seq. (" IDEA").

              Under Arizona law, a "public body, a private person or a private organization" may operate a
              charter school . A.R.S § 15-183(B} Arizona law defines charter schools as "public schools,"
              regardless of whether they are operated by a public or private entity, or a non-profit or for-profit
              organization. See AR.S. §15-IOI(3) ('''charter school' means a public school established by
              contract" with a sponsoring entity to improve pupil achievement); A.R.S . § 15-181 ("[c]harter
              schools are public schools that serve as alternatives to traditional public schools .. " ), A.R.S § lS-
              101 (19)(" 'school' means any public institution established for the purposes of providing
              instruction" in the K-12 system). Charter schools provide a free public education, funded by state
              funds and subject to supervision and oversight by the Arizona State Board ofChaner Schools,


                          1535 West Jefferson Sw:C[, Phoenix, Ari7.0na 85007 • (602) 542--4361 • www.ade.az.gov




                                                                 1
                                                                                                     2

the Arizona State Board ofEducalion, or a school district governing board - all public entities.
See AR.S. § 15-185(7)(charterschools may not charge tuition) ; A R.S. § 15-181 (charter
schools must comply with all applicable laws to recei ve state funds), A.R.S. § IS-183(C) (only
designated public entities may sponsor charter schools). Charter schools must enroll all eligible
pupils, and shall not limit admissions based on race, disability, ethnicity. sex. income level or
English language proficiency. A.R.S. §15-184 (A), (C). All Local Education Agencies,
including charter schools, which receive rederal fund s, use these funds to supplement the
education' of eligible students.

State requirements for fisc a l accoulltability at th(' charier school level

Arizona Revised Statutes mandate that charter schools are subject to the same linancial and
electronic data submission requirements as school districts, including the Uniform System of
Financial Records for Arizona Charter Schools (USFRCS) as prescribed in A.R.S. §§ 15-271 and
272, the School District Procurement Rules as prescribed in A.R.S. §15-213, and audit
requirements prescribed by A.R.S. § 15-914 (A.R.S 15-18J(E)(6». In addition, the ADE and
the Office of the Auditor General may conduct financial, program, or compliance audits of
charter schools. (AR.S . § 15-18J(EX6».

        Every charter school must ·

        submit a detailed business plan as part of their charter school application (A .KS § 15-
        18J(A))

        adhere to the state statute for submi ssion of an annual budget to the Superintendent of
        Public Instruction (AR.S. §§ 15-18J(E)(6) and 15-905(E))

        conduct and submit an annual external audit, both programmatic and financial, with an
        independent certified CPA in accordance with generally accepted auditing standards,
        Government Auditing Standards, and the minimum audit sta ndards prescribed by the
        Auditor General (A R.S. §§ 15-914 and 41-1279.2 1(A)(4)) . Laws 1999, I" S.S., Ch. 4
        Sec. 15 require audit contracts and completed audits to be approved by the state board
        that sponsors the charter school or, if the charter school is spo nsored by a school district,
        by the Auditor General.

         demonstrate annual compliance with the Uniform System For Financial Record keeping
         for Charter Schools (USFRCS) or must demonstrate compliance with generally accepted
         accounting principles (GAAP) if they have received an allowed exception from the
         USFRCS.

         submit annual financial reports to the superintendent of public instruction regarding
         funding by program (AR.S. §§ 15-904(A) and 15-18J(E)(6))

         maintain detailed records of revenues and expenses of Classroom Site Fund (CSF)
         monies and report expenditures annually to the Superintendent of Public Instruction with
         a written summary of the program's results. (A .R S § 15-977(E» .




                                                 2

Public oversight of charter schoo ls

The sponsoring entity oran Arizona charter school has oversight and administrative
responsibility for the charter schools that it sponsors. A.R.S. § I S-183(R). The sponsoring entity
is authorized under state law and the school's charter contract to take disciplinary action if the
charter school violates federal law. state law, or its charter. A.R.S §§ IS-183(1) and ISS(H). If
a charter school fail s to comply with applicable laws or if it "breaches one or more provisions of
its charter," the sponsoring entity is granted the authority to revoke the school's charter. AR .S.
§ 15-183(1). If a charter school fails to comply with federal or state laws or with its charter, the
sponsoring entity is granted the authority to submit a request to the state board of education to
withhold up to ten per cent of the monthly apportionment of state aid that would otherwise be
due the charterschool. A R.S § 15-185(H)

Moreover, the Arizona State Board of Education has authority to exercise general supervision
over and regu late the conduct of charter schools as public schools. A.R S. § IS-203(A)(I).

Charter schools are subject to scnlliny and oversight by the general pUblic. The Arizona
Attorney General has concluded that charter schools are " public bodies" for purposes of
Arizona ' s public records and open meeting laws. Ariz. Op. Any. Gen. No. 19S-10. Charter
schools must allow public inspection of their records, just as traditional school districts must
under the Arizona state law equivalent of the Freedom of Information Act. Id.; A.R.S. §39-121,
et. seq. (Arizona's public records laws).

Similarly. charter schools must conduct their business at meetings open to the public, in
compliance with Arizona ' s Open Meeting Laws. Ariz. Op. Atty. Gen . No . 195-10~ AR.S. §38-
431, et. seq. (Arizona's open meeting law). The Attorney General found charter schools to be an
" institution or instrumentality of the state or political subdivisions" for Open Meeting Law
purposes because of " the amount of general involvement that the slate has with charter schools,
the public funding ofchaner schools and the legislative determination that charter schools are
public schools." Ariz. Op Any. Gen No. 195-10 at p.4. Five years later, the Attorney General
concluded that corporale boards of directors must comply with Arizona 's open meeting laws
when discussing charter school matters. Ariz Op. Atty. Gen . No . 100-009. Thus. both for-profit
and non-profit charter schools must discuss charter school matters in public, subject to
enforcement of the Open Meeting Laws by the Arizona Attorney General and/or private lawsuits.
See AR.S. §38-431 .06 - §38-431 .07 (enforcement mechanisms).

 The Arizona Department of Education's oversight of expenditures of federal funds by
 charter schools

 In addition to audits conducted of Arizona Local Education Agencies (LEA's), which include
 School Districts and Charter Schools, department program staff also monitor these entities.
 Findings from these monitoring visits are reviewed with LEA staff, corrective action plans are
 developed, and corrective action is monitored to ensure compliance with both fiscal and program
 regulations.

 The use of federal program funds is also reviewed and monitored through the ADE's Automated
 Grants Management Process. Mandated fiscal reports submitted by LEA's are reviewed for




                                                3

compliance witb USFR and federal compliance Exceptions identified through this review result
in the withholding of federal funds to the LEA until the problem is corrected

Federal law docs not prohibit distribution of federal Title I and IDEA funds to IJUblic
charter schools operated by for-profit entities.

Both Title I and IDEA permit the Arizona Department of Education to distribute funds LEA 's.
Consistent with Arizona law, ADE treats charter schools as LEA's, whether the charter schools
are operated by a non-profit, pub li c, or for-profit entity. This makes sense because traditional
school districts, for-profit charter schools and non- profit charter schools have exactly the same
legal obligations to improve student achievement under Title I and to educate children with
disabilities under the IDEA. 20 U.S.C. §6311(b)(2)(k); 34 C.F.R. §200.49 (charter schools must
meet NeLS accountability requirements); A.R.S. § IS-183(E)(7) (Arizona charter schools must
comply with all federal and state laws for educating children with disabilities in the same manner
as a school di strict) . Both for-profi t and non-profit charter schools are subject to significant
public oversight under Arizona law Even if the federal definition of " chaner school" quoted in
the draft audit repo" applies here', for-profit charter schools in Arizona generally meet that
definition just as non-profit charter schoo ls do, because both types of charter schools are "public
schools" operated under " public supervision and direction" as explained above. See 20 U.S.c.
§722Ii, Section 5210 of the No Chi ld left Behind Act of2001; 20 U.S.c. ~8066, Section 10306
of the ESEA , as amended by the Improving America ' s Schools Act of 1994, Title X. Part C
(repealed by NClB)

We find no federal statute or regulation that prohibits for-profit charter schools from receiving
Title J or IDEA funds. On the contrary, Title I of the NCLB provides that the "accountability
provisions under this Act shaH be overseen for charter schools in accordance with State charter
school law." 20 U.S.c. §631 1(b)(2)(k) (Section 1111 ofNClB) (emphasis added); 34 C.F.R.
§200.49. Arizona law permits for-profit entities to operate charter schools. Under principles of
federalism, state laws should control unless a specific federal law applies. We do not believe that
federal law precludes for-profit charter schools from receiving federal funds. Narrowing the
circumstances in which cbarter schools are elig ibl e to receive funding also runs counter to the
school improvement provisions of No Child Left Behind Act, which aim to increase parents'
choices for educating their children, to include charter schools. See generally 20 U.S.c. *6316
(Section 111 6 ofNCLB).

Response to finding No.2. One Charter School Used Title I Funds to SUI)phuli Other
Funds lntcnded to Ilrovide Classroom Instructional Services

 Arizona LEA ' s, including Charter Schools, are instructed on the Federal requirements of
 Supplement vs. Supplant LEA compliance with federal fiscal requi rements is monitored both
 by auditors who conduct required yearly audits and by monitors of the department when they
 conduct regular program monitoring. In all instances when a finding of "SliP planting" is found ,
 LEA's are required to reimburse their federal project with Slale funds in the amount of the

          I The federal definition of "charter school" appears to apply to the Charter School

 Program, not necessarily to Title I or the IDEA. See 20 U.S.c. §7221i (definitions applicable to
 this " subpart").




                                                4

finding and are provided technical assistance on how to appropriately administer federal funding
to eliminate supplanting of federal funds in the future The Arizona Department of Education
will review the final audit by the Inspector General's Office and if a final determination of
"supplanting" is made, the ADE will take appropriate measures to recoup fede ral funding from
the appropriate Charter School in the amount of the finding

Res ponse to finding No.3, One,C harter Sc hool Had an Inadequate Financial M~Hutgement
System, Inaccurat ely Reported on lis Use of Title I Funds, and Maintained Tille I Funds in
Excess of It s Immediate Needs

For the school year 2000-2001, it was possible for a sma ll LEA. receiving less than $50,000.00.
to receive its entire allocation at the beginning of the school year. In the case of the Charter
School in question. this generated "excess cash" on hand beyond their immediate need . This is
no longer possible since the ADE has instituted procedures that require LEA's to maintain a zero
federal cash balance and which prohibit LEA 's frolll drawing more funds than their justified
immediate need .

The Arizona Department of Education's Grants Management System require s that all LEA's.
including Charter Schools, submit to the ADE quarterly cash management reports and an annual
project "completion report". These reports are reviewed to ensure that funding is being spent in
keeping with the LEA 's approved application and fund ing/payment schedule These reports are
submitted electronically to ADE. Irthe LEA is reporti ng "excess cash" the system automatically
places a " hold" on paymems to the LEA until the problem is corrected . Auditors do verificatio n
of data submitted to the ADE. by the LEA. when they conduct rouline annual audits Ifit is
determined that an LEA has submitted, "cash management reports" in error. they are provided
technical assistance on how to avoid future errors in reports. If it is determined that fraudulent
reports are submitted to the ADE, appropriate measures are instituted to report the LEA. or
Charter School, to the Office of the Attorney General and the Sponsoring Agency (the State
Board of Educat ion; the State Charter School Board or the chartering Local Educational agency)
as appropriate.

Thank you for the opportunity to comment on your audit of Arizona Charter Schools If you
have any questions regarding this response, please contact Mr. Ralph D. Romero, CPM , Deputy
Associate Superintendent at (602) 542-7462

 Sincerely,

  '"/M~
 Tom Home
 Arizona State Superintendent of Public Instruction




                                               5

